     Department of Homeland Security

     ��������������������������



       FEMA’s Initial Response in New York to 

                  Hurricane Sandy





OIG-13-124                             September 2013

                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security



                                      SEP 2 6 2013

M EMORANDUM FOR:              Joseph L. Nimmich
                              Associate Ad ministrator, Response and Recovery
                              Federal Em ge y Mana ment Agency

FROM :
                              Assistan     ector General
                              Office of Emergency Management Oversight

SUBJECT:                      FEMA 's Initial Response in New York to Hurricane Sandy



Attached for your information is our final letter report, FEMA's Initial Response in New
York to Hurricane Sandy.

We audited the Federal Emergency M anagement Agency's (FEMA) initial response to
Hurrica ne Sandy in New York from November 2012 to May 2013. We discussed the
results of this audit with FEMA officials during th e course of the audit and provided a
discussion draft report to t hem on M ay 14, 2013. The report cont ains no
recommendations.

Consistent with our responsibility under t he Inspector General Act, we w ill provide
co pies of our report t o appropriate congressio nal committees with oversight and
approp riation responsibility over the Departm en t of Homeland Security. We will post
t he report on our website for publ ic dissemination.

Please call me with any questions, or your staff may contact David Kimbl e, Director,
Eastern Regional Office, Office of Emergency Management Oversight, at (404) 832-6702..

Attach ment
                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


Background
Hurricane Sandy made landfall on October 29, 2012 as a post-tropical cyclone just south
of Atlantic City, New Jersey. The storm was the second largest Atlantic hurricane on
record, with a diameter of tropical storm force winds spanning more than 900 miles.
The storm affected one of the most densely populated areas in the northeastern United
States, resulting in loss of life, major flooding, structural damage to real property, and
loss of power throughout the region.

The President declared an emergency on October 28, 2012, and declared a major
disaster on October 30, 2012 for Individual Assistance and Public Assistance in seven
counties in New York. A major snowstorm occurred 9 days later, causing additional
damage and power outages. FEMA is providing 90 percent Federal funding for this
disaster with the exception of 100 percent Federal funding for 15 days after Hurricane
Sandy struck for emergency power restoration and emergency public transportation.

The RobertfT.fStaffordfDisasterfRelieffandfEmergencyfAct (§401), requires that all
requests for a Presidential declaration that a major disaster exists shall be made by the
Governor of the affected State. The Governor makes a request through the regional
FEMA office. Based on the Governor's request, the President may declare that a major
disaster or emergency exists, thus activating an array of Federal programs to assist in
the response and recovery effort.

Results of Audit
FEMA provided an effective and efficient response to the damages caused by Hurricane
Sandy. In its response, FEMA proactively prepared for Hurricane Sandy, overcame
operational and staffing challenges, overcame resource shortfalls, used a variety of
sourcing mechanisms, and effectively coordinated response activities. As of
April 2, 2013, FEMA had—

    •	 Obligated $459 million in mission assignments to 39 Federal agencies to support
       FEMA and the State of New York with resources, such as emergency medical
       personnel and assistance with debris clearance and power restoration;
    •	 Registered more than 270,000 Individual Assistance applicants; and
    • Obligated more than $806 million for Public Assistance.

In evaluating FEMA’s initial response to this disaster, we focused on answering the
following questions:

www.oig.dhs.gov                             2	                                  OIG-13-124

                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


    1.   What activities did FEMA perform before the major disaster declaration?
    2.   What were the most pressing challenges FEMA faced in this disaster?
    3.   What were the most significant resource shortfalls?
    4.   How did FEMA make disaster sourcing decisions?
    5.   How well did FEMA coordinate its activities?

FEMA Proactively Prepared for Hurricane Sandy

FEMA effectively coordinated activities in New York before the President’s major
disaster declaration. On October 26, 2012, FEMA Region II began coordinating pre-
deployment activities with the State. After the Emergency Declaration on
October 28, 2012, FEMA moved quickly to mobilize an Incident Management Assistance
Team, set up the Initial Operating Facility, and respond to requests for initial assistance
and needed supplies using internal resources and mission assignments.1

Incident Management Assistance Team: Because of Hurricane Sandy’s effect on New
York City, New York, FEMA Region II relocated its Regional Response Coordination
Center from its New York City offices to Earle Naval Weapons Station, New Jersey. The
Regional Response Coordination Center location contained the Federal Emergency
Support Function partners for Region II, which covers both New Jersey and New York.
FEMA’s Federal Coordinating Officer and FEMA Region II personnel deployed to
Brooklyn, New York to coordinate with the Incident Management Assistance Team.2
The team supports the initial establishment of a unified command and provides
situational awareness for Federal and State decision-makers crucial to determining the
level and type of immediate Federal support required. FEMA first deployed the Incident
Management Assistance Team to Brooklyn, New York to establish the Initial Operating
Facility.

Initial Operating Facility: FEMA operated the Initial Operating Facility from the Brooklyn
Bridge Marriott in Brooklyn, New York. The facility supported the initial establishment
of a unified command and provided situational awareness for Federal and State

1
 Incident Management Assistance Teams are full-time, rapid-response teams with dedicated staff able to
deploy within 2 hours and arrive at an incident within 12 hours to support the local incident commander.

2
  The role of Federal Coordinating Officers in disaster operations is to make an initial appraisal of the
types of relief most urgently needed, establish field offices, coordinate the administration of relief, and
take such other actions necessary to assist local citizens and public officials in promptly obtaining the
assistance to which they are entitled.



www.oig.dhs.gov                                       3                                           OIG-13-124

                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


decision-makers crucial to determining the level and type of immediate Federal support
required. The FEMA staff at the Initial Operating Facility transitioned to the Joint Field
Office.

Initial Assistance and Needed Supplies: FEMA used the logistics process and pre-
negotiated plans for supplies it previously set up in the event of disasters in New York.
For Hurricane Sandy, FEMA deployed trailer loads of water, meals, cots, blankets,
toddler and medical kits, and generators. FEMA deployed the trailers to three
neighboring areas: Republic Field in Long Island, New York; Floyd Bennett Field in
Brooklyn, New York; and Lakehurst Naval Air Station, New Jersey. Additionally, FEMA
tasked other Federal agencies to support the Federal response with mission
assignments.3 FEMA used mission assignments to mobilize Federal personnel to the
FEMA Initial Operating Facility before the hurricane’s landfall.

FEMA Successfully Overcame Operational and Staffing Challenges

FEMA performed well at managing the response and recovery challenges of Hurricane
Sandy. During the first 30 days, the most pressing challenges included (1) obtaining
housing for the thousands of people the hurricane displaced, especially given the high
population density in the New York City area, and (2) obtaining experienced disaster
staff.

Obtaining Housing for Displaced Survivors: As the response and recovery effort
progressed, FEMA realized that, because the hurricane affected the most populated
area in the nation, providing shelter would be a major concern. Traditional sheltering
options were not necessarily possible or practicable. The New York City area lacked
open space to place temporary housing units, and the holiday season limited hotel
availability. Further, the hurricane occurred late in the hurricane season, and winter
weather had arrived. To help solve this problem, FEMA implemented the Sheltering and
Temporary Essential Power Pilot Program (STEP), which allows residents to return to
their homes and shelter in place as they complete permanent repairs.

Experienced FEMA Staff: FEMA’s Joint Field Office managers overcame initial concerns
about their ability to obtain experienced staff early in the disaster. FEMA managers said
that they could no longer request personnel by name through the Automated
Deployment Database system, which precludes their ability to request staff they know
to be qualified. To resolve these concerns, FEMA implemented the FEMA Qualification


3
 FEMA issues mission assignments to direct other Federal agencies and DHS components to complete
specified tasks in response to a Presidentially-declared emergency or major disaster.
www.oig.dhs.gov                                       4                                   OIG-13-124

                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


System to capture staff skill sets, enabling the Agency to identify and deploy qualified
staff to disasters more quickly. The FEMA Qualification System establishes the process
for qualification and certification of the FEMA incident workforce through experience,
training, and demonstrated performance. The system requires formal certifications for
FEMA employees who work in certain incident management and support positions.
Qualification and certification processes provide consistent standards for every field
position at FEMA while also adding credibility to the entire emergency management
profession. By establishing qualification standards that are consistent across the
Agency, the FEMA Qualification System helps to ensure that FEMA employees have the
knowledge, skills, and experience to perform in their incident management and incident
support positions.

FEMA Overcame Resource Shortfalls

FEMA successfully obtained and managed resources needed for this disaster. FEMA
officials said their most significant resource shortfall was obtaining qualified,
experienced Federal personnel to support the response and recovery effort.

Qualified Staff: As discussed previously, FEMA officials were initially concerned about
obtaining qualified, experienced staff to support the timely delivery of disaster services.
In addition to using the FEMA Qualification System to resolve this concern, the Federal
Coordinating Officer and FEMA Region II officials coordinated with the Department of
Homeland Security (DHS), FEMA Headquarters, and other FEMA regions to quickly
deploy the Surge Capacity Force, full-time FEMA employees, and FEMA reservists to the
Joint Field Office. Obtaining and managing these resources efficiently allowed FEMA to
overcome potential shortfalls in qualified staffing.

Surge Capacity Force: A cadre of skilled and trained Federal personnel known as the
Surge Capacity Force augmented the initial surge of FEMA staff responding to Hurricane
Sandy. FEMA uses the Surge Capacity Force when its list of Tier 1 employees is
exhausted. When Hurricane Sandy made landfall, the Secretary of DHS activated the
DHS Surge Capacity Force at the request of the FEMA Administrator. The Post-Katrina
Emergency Management Reform Act directs DHS to create the Surge Capacity Force
with volunteers from other Federal agencies. FEMA worked with the leadership of
several other DHS components and, as of November 1, 2012, deployed about
1,700 volunteers from a roster of 2,142 volunteers that participating components made
available to support the Hurricane Sandy response.




www.oig.dhs.gov                              5                                   OIG-13-124

                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


FEMA Relied on a Variety of Methods for Disaster Sourcing Decisions

FEMA made effective sourcing decisions for this disaster. The primary sourcing methods
for Hurricane Sandy included mission assignments; requisitions for supplies, equipment,
services, and personnel; and acquisitions. FEMA also requested the Emergency
Management Assistance Compact.4

Mission Assignments: As of April 2, 2013, FEMA had obligated $459 million in mission
assignments to 39 Federal agencies to support FEMA and the State of New York with
resources, such as emergency medical personnel, assistance with debris clearance, and
power restoration. In its response to Hurricane Sandy, FEMA used three types of
mission assignments:

    1.	 Federal Operations Support—FEMA requests another Federal agency to assist in
        disaster response. FEMA pays all costs;
    2.	 Technical Assistance—FEMA provides technical expertise to States. FEMA pays
        all costs; and
    3.	 Direct Federal Assistance—States request this type of mission assignment when
        they do not have the resources to provide specific types of disaster assistance.
        States pay a share of the costs.

FEMA provided New York with 34 Direct Federal Assistance mission assignments valued
at $306 million. Direct Federal Assistance mission assignments are a particularly
effective sourcing method because they require completion within 60 days of the
emergency or disaster declaration. FEMA experienced some delays in obtaining New
York officials’ signatures on Direct Federal Assistance mission assignments. According to
New York Joint Field Office staff, these delays occurred because the person authorized
to approve mission assignments had left the State emergency management agency.
Ultimately, New York officials signed all Direct Federal Assistance mission assignments.
The DHS Office of Inspector General published a report with a recommendation aimed
at improving the mission assignment process, thus addressing monetary risks associated
with delays in the approval process.5

Requisitions for Supplies, Equipment, Services, and Personnel: New York Joint Field
Office finance staff members reviewed the justification for all requisitions for supplies,


4
  The Emergency Management Assistance Compact offers assistance during governor-declared states of
emergency through a responsive, straightforward system that allows States to send personnel,
equipment, and commodities to help disaster relief efforts in other States.
5
  ThefStatefoffNewfYorkfNeedsfTofSignfMissionfAssignmentsfMorefQuickly, OIG-13-85, April 30, 2013.
www.oig.dhs.gov                                    6	                                        OIG-13-124

                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


equipment, services, and personnel. They also confirmed that FEMA charged the
correct account from the Disaster Relief Fund.

Acquisitions: FEMA Headquarters awarded contracts and blanket purchase agreements
for this disaster. The majority of the contracts supported the Regional Recovery
Command Center operations. At the time of our fieldwork, the Joint Field Office
employed five contracting officers, one contract specialist, and one procurement
specialist. Before the Joint Field Office assumed operational responsibility, FEMA
entered into 43 advance contracts, of which 2 were with small local vendors. At the
time of our fieldwork, the Joint Field Office’s acquisition group had awarded
41 additional contracts totaling $3.9 million, of which 31 were local awards totaling
$2.6 million.

Emergency Management Assistance Compact: According to FEMA officials, Emergency
Management Assistance Compacts are an excellent and relatively inexpensive option
that enables one State to help another when the disaster exceeds the State’s ability to
recover. For this disaster, FEMA requested the Emergency Management Assistance
Compact. Within a week of the disaster, 27 States deployed 1,956 personnel to aid the
affected areas. For example, law enforcement teams provided security, while National
Guard units assisted with staging and delivery of food and water. Other areas of
support included (1) law enforcement strike teams, incident management teams, and
emergency operations center personnel to assist with planning, logistics, and operations
and (2) Emergency Advance Teams to assist affected areas through interstate
coordination of mutual aid assistance.

FEMA Coordinated its Activities Effectively

During its response to Hurricane Sandy, FEMA coordinated its major activities with other
Federal agencies and State officials effectively. These activities included (1) establishing
and supplying staging and mobilization sites, (2) responding to temporary housing
needs, (3) tracking and monitoring mission assignments, and (4) obtaining appropriate
staffing.

Federal Staging Areas: The FEMA Logistics Management Directorate in Washington, DC,
activated the Federal staging areas at McGuire-Dix-Lakehurst, a U.S. military installation
in Burlington and Ocean Counties, New Jersey. FEMA also deployed staging teams that
arrived before Sandy made landfall. The staging areas received commodities and
equipped personnel before area assignments. Operating under a joint effort, the
staging teams handled response needs of both New York and New Jersey.


www.oig.dhs.gov                               7                                   OIG-13-124

                             OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


Coordination with State Officials to Resolve Temporary Housing Needs: As discussed
previously, FEMA responded to temporary housing needs by using its newly
implemented Sheltering and Temporary Essential Power Pilot Program. FEMA worked
closely with State of New York officials to implement that program. FEMA and State
officials also worked closely in implementing the State’s Rapid Repairs program. New
York’s Rapid Repairs program hired contractors to make emergency repairs for
approved residential property owners. The emergency repairs allowed residents to stay
in their homes so they could complete permanent repairs. Emergency repairs include
the restoration of heat, power and hot water, and temporary exterior repairs to protect
a home from further damages. The collaborative use of these programs removed some
of the pressure on a housing system that was stressed before the storm and that now
faced the housing needs of tens of thousands of displaced survivors.

Tracking and Monitoring Mission Assignments: FEMA’s Request Action Tracking System
helped staff monitor and coordinate mission assignments FEMA issued from different
locations to avoid duplication and ensure delivery of requested items. The Request
Action Tracking System is a fully functional, web-based tool that tracks Action Request
Forms from initiation/acceptance through completion. Users can download reports and
email them to other stakeholders to provide updates for easy sharing with State or
other Federal agencies.

Coordination with Other Federal Agencies to Obtain Staffing: FEMA worked closely with
other Federal agencies to obtain staffing needed to respond to this disaster. We
observed cohesive, hard working teams fully committed to accomplishing the mission
they were charged to complete. As discussed previously, the Federal Coordinating
Officer and FEMA Region II officials coordinated with DHS, FEMA Headquarters, and
other FEMA regions to quickly deploy the Surge Capacity Force. Additionally, for this
disaster, FEMA used the services of young Americans who belong to FEMA Corps. FEMA
Corps is an innovative partnership between FEMA and the Corporation for National and
Community Service, which established a devoted unit of 1,600 service corps members
within AmeriCorps National Civilian Community Corps solely devoted to disaster
preparedness, response, and recovery.6 FEMA personnel expressed that the FEMA
Corps is a win all around—benefiting communities and individuals affected by disasters,
disaster response organizations, public servants, and American taxpayers.




6
 The Corporation for National and Community Service is a Federal agency. In addition to AmeriCorps, it
operates Senior Corps, the Social Innovation Fund, the Volunteer Generation Fund, and other volunteer
groups.
www.oig.dhs.gov                                     8                                        OIG-13-124

                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


Conclusion
FEMA performed well in its initial response to Hurricane Sandy in New York. FEMA
proactively deployed staff to the Regional Response Coordination Center and the Joint
Field Office. The ability to draw upon the Surge Capacity Force and the FEMA Corps
helped facilitate FEMA’s fast and effective response to the disaster. FEMA prepared
well for this disaster, overcame operational and staffing challenges, quickly resolved
resource shortfalls, made efficient disaster sourcing decisions, and coordinated its
activities effectively with State and local officials.

Recommendations
We are not making any recommendations.

Management Comments and OIG Analysis
FEMA concurs with the report and its conclusion.




www.oig.dhs.gov                            9                                  OIG-13-124

                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


Appendix A
Objective, Scope, and Methodology
The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
established by the HomelandfSecurityfActfoff2002 (Public Law 107-296) by amendment
to the InspectorfGeneralfActfoff1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the Department.

The objective of this audit was to determine whether FEMA’s response to Hurricane
Sandy in New York was effective and efficient, and to evaluate FEMA’s actions,
resources, and authorities according to Federal regulations and FEMA guidelines in
effect at the time of our fieldwork. To accomplish our objective, we focused on
answering the following questions:

   1.	   What activities did FEMA perform before the major disaster declaration?
   2.	   What were the most pressing challenges FEMA faced in this disaster?
   3.	   What were the most significant resource shortfalls?
   4.	   How did FEMA make disaster sourcing decisions?
   5.	   How well did FEMA coordinate its activities?

We interviewed FEMA Region II officials and FEMA Disaster Assistance Employees;
reviewed FEMA Situation Reports and Incident Action Plans; observed operations at
FEMA’s Joint Field office in Queens, New York; and performed other procedures
considered necessary to accomplish our objective. We did not assess the adequacy of
FEMA’s internal controls applicable to disaster response because it was not necessary to
accomplish our audit objective.

We also observed operations at the following sites in New York:

   •	 Disaster Recovery Centers in Far Rockaway, Breezy Point, and Staten Island, New
      York.
   •	 FEMA/State Applicant Briefings in Manhattan and Suffolk County, New York.
   •	 Damage sites in Roxbury and Staten Island, New York.

We conducted this performance audit between November 2012 and May 2013,
pursuant to the InspectorfGeneralfActfoff1978, as amended, and according to generally
accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based upon our audit objectives. We believe that
www.oig.dhs.gov                             10	                                OIG-13-124

                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


the evidence obtained provides a reasonable basis for our findings and conclusions
based upon our audit objectives.




www.oig.dhs.gov                           11                                  OIG-13-124

                         OFFICE OF INSPECTOR GENERAL
                            Department of Homeland Security


Appendix B
Report Distribution
Department of Homeland Security
Acting Secretary
Chief Financial Officer
Under Secretary for Management
Acting Chief Privacy Officer
Audit Liaison

Federal Emergency Management Agency
Administrator
Chief Counsel
Chief of Staff
Chief Financial Officer
Deputy Associate Administrator, Response and Recovery
Director, Risk Management and Compliance
Federal Coordinating Officer, FEMA Disaster Number 4085-DR-NY
Regional Administrator, FEMA Region II
Audit Liaison, FEMA (Job Code 13-121-EMO-FEMA (c))
Audit Liaison, FEMA Region II

Office of Management and Budget
Chief, Homeland Security Branch
DHS OIG Budget Examiner

Congress
Senate Committee on Appropriations, Subcommittee on Homeland Security
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations, Subcommittee on Homeland Security
House Committee on Homeland Security
House Committee on Oversight and Government Reform

Grantee
Director, New York State Division of Homeland Security and Emergency Services

State
New York Office of the State Comptroller



www.oig.dhs.gov                            12                               OIG-13-124

                        OFFICE OF INSPECTOR GENERAL
                            Department of Homeland Security


Appendix C
Major Contributors to this Report
C. David Kimble, Director
William Johnson, Supervisory Auditor
Oscar Andino, Senior Auditor
Richard Kotecki, Senior Auditor
Nadine Ramjohn, Senior Auditor




www.oig.dhs.gov                         13                    OIG-13-124

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to:

       Department of Homeland Security 

       Office of Inspector General, Mail Stop 0305 

       Attention: Office of Investigations Hotline 

       245 Murray Drive, SW 

       Washington, DC 20528-0305 


You may also call 1(800) 323-8603 or fax the complaint directly to us at
(202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
